IN THE SUPREME COURT OF THE UNITED STATES

No. 21-270

BNSF RatLway Co.,

Petitioners
v.

ROBERT DANNELS,

Respondent.

CERTIFICATE OF SERVICE

I, Cory L. Andrews, counsel for amici curiae Washington Legal Foundation and
Allied Educational Foundation and a member of the Bar of this Court, certify that on
this 24th day of September, 2021, three copies of the amicus brief were mailed to the
following:

Andrew S. Tulumello

WEIL, GOTSHAL & Mancrs LLP
2001 M Street NW
Washington, DC 20036
drew.tulumello@weil.com
Counsel for Petitioner

Deepak Gupta

Gupta WESSLER PLLC
1900 L Street NW

Suite 312

Washington, DC 20036
deepak@guptawessler.com
Counsel for Respondent
Lalso certify that an electronic copy of the amicus brief was sent to each counsel

listed above, and that all parties required to be served have been served.

Dated: September 24, 2021

    

Cory L. Andfrews
WASHINGTON LEGAL FOUNDATION
2009 Massachusetts Ave., NW
Washington, DC 20036

(202) 588-0302
candrews@wlf.org

Counsel for Amict Curiae
